TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Voucher Audit of the Federally Funded
                      Research and Development Center
                         Contract – TIRNO-99-D-00005



                                         August 31, 2006

                              Reference Number: 2006-10-140




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 31, 2006


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES


 FROM:                         (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report - Voucher Audit of the Federally Funded Research
                               and Development Center Contract - TIRNO-99-D-00005
                               (Audit # 200610014)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Federally
 Funded Research and Development Center contract TIRNO-99-D-00005. The overall objective
 of this review was to determine whether selected vouchers submitted and paid under contract
 number TIRNO-99-D-00005 were appropriate and in accordance with the contract’s terms and
 conditions.

 Synopsis
 Contract expenditures represent a significant outlay of Internal Revenue Service (IRS) funds.
 The Treasury Inspector General for Tax Administration has made a commitment to perform
 audits of these expenditures. We initiated this audit to determine whether the vouchers
 submitted by the contractor and paid by the IRS were accurate, supported, and allowable.
 Our review resulted in the identification of questionable charges of $28,449.21. The
 questionable charges consisted of unallowable and unsupported costs.
 The Treasury Inspector General for Tax Administration Office of Audit Information Systems
 Programs staff is currently performing a program audit of this contract’s work products for
 specific task orders to determine whether the contractor effectively delivered services, and the
 IRS effectively and timely monitored the contractor’s performance.1 That audit’s results will be
 reported separately. As part of this audit, we significantly limited our audit procedures regarding

 1
     Role and Cost of the Federally Funded Research and Development Center (Audit Number 200620038).
                       Voucher Audit of the Federally Funded Research and
                        Development Center Contract – TIRNO-99-D-00005



contract deliverables to interviews with the Contracting Officer and the Contracting Officer’s
Technical Representative to determine whether contractor performance was satisfactory. Based
on these limited auditing procedures, nothing came to our attention that would lead us to believe
there were significant problems with the deliverables associated with the contract. However, a
final conclusion concerning contractor performance will depend on the results of the program
audit.

Recommendation
We recommended the Director, Procurement, ensure the appropriate Contracting Officer reviews
the identified questionable charges of $28,449.21 and initiates any recovery actions deemed
warranted.

Response
IRS management agreed with our recommendation. For the unsupported subcontractor costs, the
Office of Procurement will periodically request invoice backup documentation to “spot check”
the invoices and validate their accuracy. For the unallowable other direct charges and
unallowable travel charges, the Office of Procurement will issue a letter to the contractor
pursuing recovery of these charges. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions, or
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                    2
                               Voucher Audit of the Federally Funded Research and
                                Development Center Contract – TIRNO-99-D-00005




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Questionable Contract Charges and Voucher Verification Process .............Page 3
                    Recommendation 1:..........................................................Page 5

          Contract Deliverables....................................................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Outcome Measure ................................................................Page 11
          Appendix V – Management’s Response to the Draft Report .......................Page 12
                           Voucher Audit of the Federally Funded Research and
                            Development Center Contract – TIRNO-99-D-00005




                                             Background

In October 1998, the Internal Revenue Service (IRS) awarded contract number
TIRNO-99-D-00005, a cost-plus-fixed-fee contract,1 which established a Federally funded
research and development center.2 The mission of the center is to provide support for the
modernization of systems and their operations. The contractor is a not-for-profit corporation
organized to ensure that none of its assets will directly or indirectly benefit any private individual
or entity.
The contract was awarded for a base period from October 1998 through September 30, 1999.
The contract includes six option periods which carry the term of the contract through
September 30, 2013.3 According to the IRS Request Tracking System,4 as of December 2005,
the IRS had approved approximately $53 million for payment to the contractor.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration made a commitment to perform audits of these expenditures.
This audit was designed to determine whether amounts paid by the IRS under this contract were
accurate, supported, and allowable through a review of the contractor vouchers and supporting
documentation.
We conducted our voucher audit concurrently with a program audit of the Federally funded
research and development center performed by the Treasury Inspector General for Tax
Administration Office of Audit Information Systems Programs staff.5 The objectives of the
program audit were to determine whether the contractor effectively delivered services that
significantly contributed to achieving stated objectives, and to determine whether the IRS can
effectively and timely monitor and report on the contractor’s performance. As a result, we
significantly limited our audit procedures regarding contract deliverables to interviews with the


1
  A cost-plus-fixed-fee acquisition provides for payment of allowable incurred costs, to the extent prescribed in the
contract, and payment of a negotiated fee that is fixed at the inception of the contract. The fixed fee does not vary
with actual cost but may be adjusted as a result of changes in the work to be performed.
2
  Federally funded research and development centers enable agencies to use private sector resources to accomplish
tasks that are integral to the agencies’ missions and operations. The centers are operated, managed, and/or
administered by either a university or a consortium of universities; another not-for-profit organization; or, an
industrial firm, as an autonomous organization or as an identifiable separate operating unit of a parent organization.
3
  Options 1 through 4 are for 1-year each; options 5 and 6 are for 5-year durations.
4
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic receipt and acceptance
of items delivered and provides an electronic interface with the Integrated Financial System (the IRS’ administrative
financial accounting systems) for payment processing.
5
  Role and Cost of the Federally Funded Research and Development Center (Audit Number 200620038).
                                                                                                              Page 1
                      Voucher Audit of the Federally Funded Research and
                       Development Center Contract – TIRNO-99-D-00005



Contracting Officer and the Contracting Officer’s Technical Representative to determine whether
contractor performance was satisfactory.
This audit was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, and the contractor’s facility in Bedford, Massachusetts, during
the period November 2005 through June 2006. Opinions expressed in this report pertain only to
the vouchers included in our sample. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 2
                                Voucher Audit of the Federally Funded Research and
                                 Development Center Contract – TIRNO-99-D-00005




                                         Results of Review

Questionable Contract Charges and Voucher Verification Process
We examined supporting documentation obtained from the IRS Office of Procurement, as well
as documentation received directly from the contractor, for a judgmental sample of eight
vouchers (see Appendix I for details). The 8 vouchers were processed between February 2004
and October 2005, and involved approximately $13.8 million in IRS payments. The primary
expenses claimed on the vouchers were labor costs, other direct costs (e.g., travel and
subcontractor costs), and indirect costs (e.g., overhead, general and administrative expenses, and
cost of money).

Questionable contract charges
Based on our audit tests, we identified questionable charges of $28,449.21 as shown in Table 1.
We provided details of these charges to the contractor and the IRS.
                                Table 1: Schedule of Questionable Charges
                                                                          Questionable
                                         Questioned Activity
                                                                           Charges
                                Unsupported Subcontractor Costs              $27,056.64
                                Unallowable Other Direct Costs                  $775.57
                                Unallowable Travel Charges                      $617.00
                                Total                                        $28,449.21
                            Source: Treasury Inspector General for Tax Administration
                            analysis of eight vouchers submitted to the IRS.

All of the unsupported subcontractor costs involved an instance in which the documentation
provided did not adequately support the expenses claimed for subcontractor labor. The
unallowable other direct costs involved instances of catering expenses and cell phone charges.
Finally, the unallowable travel charges related to costs that exceeded Federal
Government-established per diem rates.
The Federal Acquisition Regulation (FAR)6 stipulates a contractor is responsible for accounting
for costs appropriately and for maintaining records, including supporting documentation,
adequate to demonstrate that costs claimed were incurred. The FAR also provides that costs

6
    48 C.F.R. pt 1-53 (2002).
                                                                                            Page 3
                          Voucher Audit of the Federally Funded Research and
                           Development Center Contract – TIRNO-99-D-00005



shall be allowed to the extent they are reasonable, allocable, and allowable under the FAR. In
addition, the contract stipulates that the contractor may be reimbursed for travel costs in
accordance with the Federal Travel Regulations.7 The Federal Travel Regulations provide that
the meals and incidental expense allowance on the first and last day of travel is 75 percent of the
applicable meals and incidental expense rate; however, the contractor had claimed 90 percent.
Additionally, the Principles of Federal Appropriations Law8 stipulates that appropriated funds
may not be used for entertainment, and defines entertainment as including food and drink, either
formal meals or snacks, and refreshments. The contractor had claimed catering expenses.

Voucher verification process
Contracts may be entered into and signed on behalf of the Federal Government only by
Contracting Officers (CO). The COs have the authority to administer or terminate contracts and
make related determinations and findings. The COs are responsible for ensuring performance of
all necessary actions for effective contracting, ensuring compliance with the terms of the
contract, and safeguarding the interests of the United States in its contractual relationships.
The requesting program office nominates a Contracting Officer’s Technical Representative
(COTR), who is the CO’s technical expert and representative in the administration of a contract
or task order. Usually, the CO will appoint the COTR by issuing a signed letter of appointment
tailored to meet the needs to each contract. The CO and the COTR are required to jointly review
all appointed duties.
Prior to April 28, 2004, the Department of the Treasury Contracting Officer’s Technical
Representatives Handbook was the primary guidance for the COTRs.9 Part IV of the Handbook
stated, in part, that the COTRs are responsible for reviewing and approving invoices and
vouchers on contracts. It also stated the COTRs will receive instructions regarding involvement
in the review and approval of invoices and vouchers from the CO. Two of the eight vouchers
included in our sample were subject to this guidance.
On April 28, 2004, the IRS replaced the Handbook guidance, in part, with a reference to the
Office of Federal Procurement Policy document A Guide to Best Practices for Contract
Administration (the Guide). The Guide offers, as a practical technique, that the COTRs
reviewing vouchers under cost-reimbursement contracts should review, among other things,
contractor timecards to help assess the reasonableness of direct labor costs. The Guide also
contains directions to review major cost categories, such as travel, supplies, other direct costs,
and subcontractor costs, to again determine the reasonableness of the claimed costs.


7
  41 C.F.R. Chapter 301 (2005).
8
  “Principles of Federal Appropriations Law,” Third Edition, published by the Government Accountability Office.
9
  Department of the Treasury Acquisition Circular No. 02-01, dated April 28, 2004, deleted references to the
Contracting Officer’s Technical Representatives Handbook. The Circular also stated the Department of the
Treasury would no longer maintain the Handbook.
                                                                                                         Page 4
                            Voucher Audit of the Federally Funded Research and
                             Development Center Contract – TIRNO-99-D-00005



The COTR is responsible for receipt and acceptance of the vouchers. The COTR receives a
monthly progress report which details the hours worked. The COTR forwards the progress
report to the appropriate program offices for verification of the hours. If a problem is identified,
the COTR works with the CO and the contractor to resolve the issue. Otherwise, the voucher is
approved for payment. The IRS does not receive any documentation supporting labor hours
(e.g., time reports) or other direct costs. Additionally, the IRS does not verify that the
appropriate indirect rates were used to calculate indirect costs included on the vouchers. The CO
explained the IRS relies on the Defense Contract Audit Agency to audit and ensure proper rate
application.
We did not identify a significant amount of questionable charges on the vouchers reviewed,
notwithstanding the incomplete voucher verification process relating to the documentation
supporting labor hours and other direct costs. We will continue to include reviews of the IRS’
voucher verification process in future contract voucher audits and, if warranted, recommend
improvements to the process.

Recommendation
Recommendation 1: The Director, Procurement, should ensure the appropriate CO reviews
the identified questionable charges of $28,449.21 and initiates any recovery actions deemed
warranted.
           Management’s Response: The IRS agreed with our recommendation. For the
           unsupported subcontractor costs, the Office of Procurement will periodically request
           invoice backup documentation to “spot check” the invoices and validate their accuracy.
           For the unallowable other direct charges and unallowable travel charges, the Office of
           Procurement will issue a letter to the contractor pursuing recovery of these charges.

Contract Deliverables
The Treasury Inspector General for Tax Administration Office of Audit Information Systems
Programs staff is currently performing a program audit of this contract’s work products for
specific task orders to determine whether the contractor effectively delivered services and the
IRS effectively and timely monitored the contractor’s performance.10 That audit’s results will be
reported separately.
Therefore, as part of our audit, we limited our tests to interviewing the CO and COTR to
determine whether contractor performance was satisfactory. Based on these limited auditing


10
     Role and Cost of the Federally Funded Research and Development Center (Audit Number 200620038).



                                                                                                       Page 5
                       Voucher Audit of the Federally Funded Research and
                        Development Center Contract – TIRNO-99-D-00005



procedures, nothing came to our attention that would lead us to believe there were significant
problems with the deliverables associated with the contract. However, a final conclusion
concerning contractor performance will depend on the results of the program audit.




                                                                                           Page 6
                           Voucher Audit of the Federally Funded Research and
                            Development Center Contract – TIRNO-99-D-00005



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected vouchers submitted and
paid under contract number TIRNO-99-D-00005 were appropriate and in accordance with the
contract’s terms and conditions. To accomplish this objective, we:
I.      Analyzed the Internal Revenue Service’s (IRS) voucher verification process prior to
        certifying payment to the contractor.
        A. Interviewed the Contracting Officer and the Contracting Officer’s Technical
           Representative to confirm our understanding of the voucher verification process.
        B. Documented voucher processing risks including accuracy, supportability, and
           allowability of voucher charges and concluded as to the overall control environment.
        C. Interviewed IRS personnel involved in the administration of the contract to identify
           any concerns that existed regarding the contractor, its billing practices, or any specific
           vouchers.
II.     Verified whether voucher charges submitted by the contractor and paid by the IRS were
        accurate, supported, and allowable.
        A. Identified a sample selection universe from a list of vouchers for Fiscal Years 2004
           and 2005 provided by the Contracting Officer. This list consisted of 56 vouchers,
           which we reconciled to the IRS Request Tracking System (RTS).1 From this list, we
           judgmentally selected eight vouchers for review. The 8 vouchers, which were issued
           between February 2004 and October 2005, involved approximately $13.8 million in
           IRS payments and represented approximately 26 percent of the total amount paid by
           the IRS. The eight vouchers were broken down by projects. In considering the size
           and extent of the voucher charges against audit resource limitations, we further
           refined our sample to 34 projects to verify all other direct costs and a judgmental
           sample of contractor labor costs. In doing this, we selected approximately $1 million,
           or 19 percent, of contractor labor charges; approximately $541,000, or 57 percent, of
           other direct costs; and approximately $4.8 million, or 66 percent, in indirect costs and
           fees included on the 8 vouchers. We believed this sampling method would provide
           sufficient evidence to accomplish our audit objective and would result in acceptable

1
 The RTS is a web-based application that allows IRS personnel to prepare, approve, fund, and track requests for the
delivery of goods and services. The RTS also allows for electronic acceptance of items delivered and provides an
electronic interface with the Integrated Financial System (the IRS’ administrative financial accounting system) for
payment processing.
                                                                                                           Page 7
                      Voucher Audit of the Federally Funded Research and
                       Development Center Contract – TIRNO-99-D-00005



          management corrective action without the need for precise projection of sample
          results.
          This audit did not include procedures to obtain evidence that
          computer-processed data, within the IRS RTS, were valid and reliable. Though used
          during this audit, the data in general were not considered significant to the audit’s
          objective or resultant findings. We only used the data within the RTS to reasonably
          verify the universe from which we selected our sample of transactions for substantive
          testing of their accuracy, supportability, and allowability. We only concluded and
          reported on those substantive tests. Therefore, there was no adverse effect on the
          audit results from not including procedures to assess the reliability of computer-
          processed data.
       B. Obtained supporting documentation for the vouchers in the sample from the IRS and
          the contractor and performed the following tests:
          1. Verified the mathematical accuracy of the vouchers and supporting
             documentation.
          2. Traced voucher charges to supporting documentation.
          3. Verified whether voucher charges were actually paid by the contractor through
             examination of payroll records and extracts from the contractor’s financial
             records.
          4. Verified whether voucher charges were allowable under the terms and conditions
             of the contract.
III.   Verified through interviews with responsible officials whether there was acceptable
       existence of deliverables, as stipulated in the contract, for the vouchers included in our
       sample. This audit step was significantly limited due to a concurrent program audit of the
       contract’s work products by the Treasury Inspector General for Tax Administration
       Office of Audit Information Systems Programs staff.




                                                                                          Page 8
                     Voucher Audit of the Federally Funded Research and
                      Development Center Contract – TIRNO-99-D-00005



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Terrey Haley, Senior Auditor
Debra Kisler, Senior Auditor
Rashme Sawhney, Auditor




                                                                                     Page 9
                     Voucher Audit of the Federally Funded Research and
                      Development Center Contract – TIRNO-99-D-00005



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                          Page 10
                       Voucher Audit of the Federally Funded Research and
                        Development Center Contract – TIRNO-99-D-00005



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Questioned Costs – Potential; $28,449.21 (see page 3).

Methodology Used to Measure the Reported Benefit:
We examined vouchers and supporting documentation obtained from the Internal Revenue
Service Office of Procurement, as well as documentation received directly from the contractor,
to verify charges for a judgmental sample of eight vouchers. We selected our sample from a
universe of 56 vouchers. The 8 selected vouchers involved approximately $13.8 million in
Internal Revenue Service payments.
Our review resulted in the identification of questionable charges of $28,449.21. Specifically,
these charges consisted of $27,056.64 in unsupported subcontractor costs, $775.57 in
unallowable other direct costs involving catering and cell phone expenses, and $617.00 in
unallowable travel charges.




                                                                                          Page 11
       Voucher Audit of the Federally Funded Research and
        Development Center Contract – TIRNO-99-D-00005



                                                   Appendix V


Management’s Response to the Draft Report




                                                            Page 12
Voucher Audit of the Federally Funded Research and
 Development Center Contract – TIRNO-99-D-00005




                                                     Page 13
